CERTIFICATE OF SERVICE
I hereby certify that a copy of the May 13, 2021 letter transmitted
herewith and notifying the Court that Marcus J. Golz and Matthew J. Golz have no
interest in the outcome of the petition captioned William J. Golz v. Marcia L. Fudge
will be sent by first-class mail, postage prepaid, to:
Marcus J. Golz, P.E.
552 Hillsdale Street
Helena, MT 59601

Matthew J. Golz
565 Congress Avenue
Havre De Grace, MD 21078

I further certify that a copy of the above letter will be transmitted by
first-class mail, postage prepaid, to:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
(202) 514-2203
I declare under penalty of perjury that the foregoing is true and correct
and that to the best of my knowledge all parties required to be served have been
served.

EXECUTED on May 13, 2021.

William Golz, Ph.D.
Petitioner, Pro Se
29714 North 152nd Way
Scottsdale, Arizona 85262
Phone: (480) 816-5019

